<html>
<title> - REDUCING EMISSIONS WHILE DRIVING ECONOMIC GROWTH: INDUSTRY-LED INITIATIVES</title>
<body><pre>[Senate Hearing 116-107]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-107

    REDUCING EMISSIONS WHILE DRIVING ECONOMIC GROWTH: INDUSTRY-LED 
                              INITIATIVES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                            OCTOBER 17, 2019
                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
                  
                  

        Available via the World Wide Web: http://www.govinfo.gov
        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
38-868 PDF                 WASHINGTON : 2020         
        





[[Page (ii)]]



               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                     MIKE BRAUN, Indiana, Chairman
JAMES M. INHOFE, Oklahoma            SHELDON WHITEHOUSE, Rhode Island, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE ROUNDS, South Dakota            BERNARD SANDERS, Vermont
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
JOHN BARRASSO, Wyoming (ex officio)  TAMMY DUCKWORTH, Illinois
                                     THOMAS R. CARPER, Delaware (ex 
                                         officio)

[[Page (iii)]]



                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 17, 2019
                           OPENING STATEMENTS

Braun, Hon. Mike, U.S. Senator from the State of Indiana.........     1
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     3
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................   134
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   155

                               WITNESSES

Wilkinson, Todd, Policy Division Vice Chairman, National 
  Cattlemen's Beef Association...................................     6
    Prepared statement...........................................     8
    Responses to additional questions from Senator Braun.........    14
Macchiarola, Frank, Vice President of Downstream and Industry 
  Operations, American Petroleum Institute.......................    16
    Prepared statement...........................................    18
    Responses to additional questions from:
        Senator Braun............................................    75
        Senator Whitehouse.......................................    78
Durbin, Martin, President, Global Energy Institute, U.S. Chamber 
  of Commerce....................................................    82
    Prepared statement...........................................    84
    Responses to additional questions from:
        Senator Braun............................................    91
        Senator Whitehouse.......................................    91
Dutton, Andrea, Visiting Associate Professor, Department of 
  Geoscience, University of Wisconsin-Madison, Gainesville, 
  Florida........................................................    95
    Prepared statement...........................................    97
Wilson, John, Vice President and Director of Corporate 
  Engagement, Calvert Research and Management....................   104
    Prepared statement...........................................   106
    Responses to additional questions from Senator Braun.........   110

                          ADDITIONAL MATERIAL

From Senator Braun:
    Letters:
        To Senators Braun and Whitehouse from the American Forest 
          & Paper Association, October 9, 2019...................   156
        To Senators Braun and Whitehouse from the City of 
          Farmington, New Mexico, October 15, 2019...............   160
        To Senators Braun and Whitehouse from the National 
          Audubon Society, October 16, 2019......................   162
        To Senators Braun and Whitehouse from the Portland Cement 
          Association, October 17, 2019..........................   164
    Enchant Energy San Juan Generating Station--Units 1 & 4, 
      CO<INF>2</INF> Capture Pre-Feasibility Study. Final, 
      prepared by Sargent & Lundy, July 8, 2019..................   167
    Pursuing Policies to Drive Economic Growth and Reduce 
      Emissions, The Heritage Foundation, October 16, 2019.......   207
From Senator Carper:
    The Kigali Amendment is a Win for the Environment and the 
      U.S. Economy, U.S. Chamber of Commerce, May 8, 2018........   224
    Testimony of Ross Eisenberg, Vice President of Energy and 
      Resources Policy, National Association of Manufacturers, 
      before the House Committee on Energy and Commerce 
      Subcommittee on Environment and Climate Change, September 
      18, 2019...................................................   227

 
    REDUCING EMISSIONS WHILE DRIVING ECONOMIC GROWTH: INDUSTRY-LED 
                              INITIATIVES

                              ----------                              


                       THURSDAY, OCTOBER 17, 2019

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Mike Braun 
(Chairman of the Subcommittee) presiding.
    Present: Senators Braun, Whitehouse, Barrasso, Capito, 
Ernst, and Carper.

             OPENING STATEMENT OF HON. MIKE BRAUN, 
             U.S. SENATOR FROM THE STATE OF INDIANA

    Senator Braun. Good morning. I call this hearing to order.
    Thanks to everyone for being here today.
    We are meeting today to begin the important work of 
examining our changing climate and its effects on producers of 
American goods, services, and agriculture. Today, we will hear 
testimony from experts on the innovative private sector led 
initiatives in the U.S. that reduce air emissions while 
promoting economic growth. We will begin with opening 
statements and then hear from our panel of witnesses.
    I will start here. During the month of August, I traveled 
around the Hoosier State on my Summer Solutions tour. In the 
first little over 9 weeks, I did visit all 92 counties and got 
a real good reading of where Hoosiers are on issues related to 
climate. Nearly every stop, we discussed the importance of 
sustainability and the need to protect our environment.
    As I have learned through visiting with Hoosiers over the 
past 2 years, I have concluded the American people are paying 
attention to these important conversations. You wouldn't know 
it by watching the news, but we have all been thinking about 
and investing in this problem for a long time. Everyone, that 
is maybe except Washington, who has been too polarized for too 
long to deal with much of anything, particularly our changing 
climate.
    Instead, American innovators and capital have been leading 
the way, our manufacturing, agriculture, and generation sectors 
have seen significant improvements from the voluntary adoption 
of new, lower carbon corporate practices.

[[Page 2]]

    According to the Energy Information Administration, U.S. 
energy related CO<INF>2</INF> emissions decreased nine-tenths 
of a percent in 2017 alone. The American economy has been so 
impressive at reducing emissions that, in 2018, BP noted in its 
statistical review of world energy that the U.S. was the world 
leader for reducing carbon emissions, prompting the American 
Enterprise Institute to note that for the ninth time in this 
century, the U.S. has had the largest decline in emissions in 
the world. And we still need to do better.
    In fact, in 2017, the U.S. Energy Information 
Administration found U.S. emissions from energy sources hit 
their lowest level in 25 years, while during those same 25 
years, U.S. GDP more than doubled, and real median household 
income rose by nearly 20 percent.
    And yet, innovation continues. In September, Duke Energy, a 
company which serves 7.2 million customers, announced an 
ambitious new initiative, which would bring its carbon 
emissions to net zero by 2050.
    The world's largest retailer, Amazon, has announced its 
plan to achieve net zero by 2040.
    Last year, in an Indiana subsidiary of Nicor, a natural gas 
utility that serves almost 4 million customers, announced a 
Your Energy, Your Future plan. Under this initiative, Nicor 
plans to cut 90 percent of its greenhouse gas emissions.
    What is perhaps most impressive about changes made by 
industry is that we have been able to accomplish significant 
emissions reduction while not sacrificing the country's overall 
economic competitiveness. But we must constantly remain 
vigilant of the balance.
    There is a real risk that in attempting to curb emissions, 
American families, workers, and businesses will be hit with 
rising prices, fees, and utility bills. It is our duty to 
balance these two interests. Rather than dictate choices, we 
should allow for the market to drive new ways to produce and 
consume energy and goods more efficiently.
    However, our national debate is deviated from this balance, 
instead focusing on policies which would, without question, 
severely limit consumer choice in many areas, from the type of 
energy you should use to the kind of car or appliance you 
should buy, to how much meat you should eat. In the case of the 
Green New Deal, a complete central planning reorganization of 
our economy, I believe the effect would be significant, and not 
in the right direction.
    It is one thing when you make these decisions for yourself. 
It is another one when Washington forces its decisions upon 
you.
    Economic competitiveness would be the real cost of these 
proposals, when ironically, if we really are going to solve our 
environmental problems, we will need innovators to produce the 
technologies to get us there, the hallmark of what has built 
this country. This is why today's focus on private sector 
investment has been so critical, what has been driving these 
decisions and what the results have been.
    I look forward to each of your testimonies as we continue 
to consider these questions. And I draw the parallel of being 
on the HELP Committee, where we are taking on the health care 
industry, who I have solely blamed for the pickle we are in 
with high

[[Page 3]]

health care costs, and have asked them to get with it, start 
fixing yourselves. When 80 Senators weigh in, you should be 
getting the message.
    I have been impressed, in the energy sector, in what we are 
going to talk about today, the interest within the industry of 
being responsible in trying to help protect the environment.
    Now I would like to recognize Ranking Member Senator 
Whitehouse for his opening statement.
    Senator.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Let me start by thanking Senator Braun 
for holding this. He is a terrific colleague to work with on 
these issues. I think there is a real chance for progress in 
the weeks and months ahead.
    I will start my remarks by looking backward to 1986, when a 
similar subcommittee of this Committee had 3 days of hearings 
on climate change. After these hearings, six members of this 
Committee, three Republicans and three Democrats, wrote to the 
executive director of the now defunct Office of Technology 
Assessment, and asked for a study of policy options to reduce 
carbon pollution. They all wrote together that they were deeply 
troubled by climate change and its implications for the human 
and natural worlds. Deeply troubled, and implications for the 
human and natural worlds being quotes from their letter, 33 
years ago.
    In the intervening decades, carbon pollution and global 
temperature increase and warming and acidification of the 
oceans and the experience of climate related events like 
wildfires have all accelerated. The disastrous effects of 
climate change are now plain for anyone who is looking to see. 
Yet Congress has undertaken no serious legislation to address 
our climate crisis.
    Why is that? Because hundreds of millions of dollars are 
spent by the fossil fuel industry to block climate action. Much 
of this is spent through trade associations and front groups 
that are controlled by the fossil fuel industry.
    Two of these trade associations are present here today. The 
watchdog group, Influence Map, identified the U.S. Chamber as 
one of the two most obstructionist groups on climate policy. 
API is not far behind.
    There are signs of change at the Chamber, and at the 
National Association of Manufacturers, the two tied for worst 
climate obstructers in America. And even at API. I want to 
express my appreciation to the Chamber for inviting me, of all 
people, to speak to a Chamber gathering in New York City during 
Climate Week, which I hope is a sign of good progress to be 
made in the future.
    I appreciate very much also that the Chairman and my 
colleague from West Virginia are working with me to provide 
Federal dollars for developing new technologies to reduce 
industrial emissions. Our industrial emissions bill is a good 
one. The Chamber and NAM are supporting it.
    But what companies are doing voluntarily to reduce their 
emissions won't come close to the reductions that we need. A 
2018 study by America's Pledge totaled up the voluntary pledges 
from compa

[[Page 4]]

nies and State and local government emissions reduction 
commitments and found that they would only result in a 17 
percent decline in carbon emissions by 2025, which is well 
short of even the rather weak kneed Paris Agreement pledge of 
28 percent. We actually need far larger reductions if we are to 
hold warming to 1.5 degrees Celsius and avoid the very worst of 
consequences.
    Innovation is a beautiful thing. America specializes in it, 
but it doesn't happen in a vacuum. Without Federal policies 
such as a price on carbon, there is little incentive for 
businesses to innovate. We have seen this principle proven out 
over and over, whether for criteria air pollutants under the 
Clean Air Act, or CFCs under the Montreal Protocol. Federal and 
international policies provided the framework for businesses to 
rely on and develop new technologies that reduced those 
emissions.
    Investors also recognize this. More than 200 major 
investors with $6.5 trillion in assets under management 
recently wrote to almost 50 blue chip companies that, 
``Corporate commitments to embrace energy efficiency and set 
greenhouse gas reduction goals are necessary and welcomed, but 
to facilitate the deployment of capital at a necessary pace and 
scale, a strong public policy framework is needed.''
    More than 500 investors with over $35 trillion in assets 
under management recently called on policymakers to put a 
meaningful price on carbon emissions. The reason for this is, 
of course, the well documented warnings which I have forwarded 
to every single one of my Senate colleagues of a carbon asset 
bubble crash and a coastal property values crash. Progress on 
climate is increasingly seen as essential to successful 
business models in the banking, investment, and agricultural 
sectors.
    To get that progress done, corporate America must ensure 
that the trade associations to which they belong are not major 
climate obstructionists. And I hope the Chamber and API are 
getting the message.
    If one message can come out of this hearing, it is that it 
is well past time for corporate America to break the fossil 
fuel industry's stranglehold on these trade associations, and 
instead, demand the climate action that is needed to protect 
our economy and their own business models.
    Thank you very much, Mr. Chairman.
    Senator Braun. Thank you, Senator.
    I am pleased that we have a great panel here today. Our 
witnesses come from a wide variety of backgrounds, and I am 
looking forward to the different perspectives that will 
facilitate our discussion today.
    Our first witness today is Todd Wilkinson, who is co-owner 
and operator of a commercial cow-calf operation in South 
Dakota. He is also co-owner of Redstone Feeders, a family owned 
cattle feeding and finishing operation, and a founding member 
and current vice president of the South Dakota Cattlemen's 
Foundation.
    Mr. Wilkinson is here today in his capacity as policy 
division vice chairman of the National Cattlemen's Beef 
Association. Mr. Wilkinson has practiced law for more than 35 
years, specializing in estate planning and agricultural law. He 
is a graduate of

[[Page 5]]

Augustana College and the University of South Dakota Law 
School.
    Our next witness is Frank Macchiarola, the vice president 
of downstream and industry operations at the American Petroleum 
Institute, API. He joined API in January 2016, where he leads 
association efforts on fuels, refining, marketing, and 
downstream safety, security, and technology. Prior to joining 
API, Mr. Macchiarola served as executive VP of government 
affairs at America's Natural Gas Alliance. From 2004 to 2013, 
he worked here in several senior staff positions in the U.S. 
Senate, including staff director and counsel to the U.S. Senate 
Committee on Energy and Natural Resources, and minority staff 
director of the U.S. Senate Committee on HELP.
    Mr. Macchiarola earned his BA from the College of Holy 
Cross, and his J.D. from New York University School of Law.
    Next in line will be Marty Durbin. Mr. Durbin is the 
president of the Global Energy Institute at the U.S. Chamber of 
Commerce. Previously, Mr. Durbin was the executive VP and chief 
strategy officer at the American Petroleum Institute, and the 
VP of Federal relations at the American Chemistry Council.
    Earlier in his career, he served as a staffer for Senator 
Alan Dixon, and for Congressman Rick Boucher. Mr. Durbin 
received his bachelor's in government and politics from the 
University of Maryland-College Park.
    Fourth will be Dr. Andrea Dutton. She is an associate 
professor at the University of Wisconsin-Madison where her 
research focuses on various impacts of climate change, in 
particular its impact on sea levels. Previously, she spent 8 
years as an assistant professor in the University of Florida's 
Department of Geological Sciences.
    Prior to her professorship at the University of Florida, 
Dr. Dutton was a research fellow at the Australian National 
University, where she worked to understand historical warming 
periods. Dr. Dutton holds a bachelor's degree in music from 
Amherst College, in addition to a master's and Ph.D. both in 
geology from the University of Michigan. She completed her 
post-doctoral work at the Australian National University.
    Final witness today is John Wilson, the VP and director of 
corporate engagement for Calvert Research and Management. His 
firm specializes in responsible and sustainable investing 
across global capital markets. Mr. Wilson leads the design and 
execution of Calvert's corporate engagement and shareholder 
activism strategy.
    He began his career in the investment management industry 
in 1997. Before joining Calvert Research, he was the head of 
governance and research at Cornerstone Capital Group. He also 
served as the director of corporate governance at TIAA-CREF and 
was the director of socially responsible investing at Christian 
Brothers Investment Services.
    John earned a B.A. in English from Georgetown University, 
an MBA in finance from Columbia University, and an MIA in 
economic and political development from Columbia University 
School of International and Public Affairs.
    I want to remind the witnesses that your full written 
testimony will be made part of the official hearing record. 
Please keep your

[[Page 6]]

statements to 5 minutes, so that we may have plenty of time for 
questions.
    We look forward to hearing your testimony, beginning with 
Mr. Wilkinson.
    Please proceed.

  STATEMENT OF TODD WILKINSON, POLICY DIVISION VICE CHAIRMAN, 
             NATIONAL CATTLEMEN'S BEEF ASSOCIATION

    Mr. Wilkinson. Good morning, and thank you, Chairman Braun 
and Ranking Member Whitehouse.
    My name is Todd Wilkinson. I am an owner of a cow-calf 
operation with my son and a part owner of a commercial feed 
yard with my brothers near to Smith, South Dakota. I am proud 
today to testify on behalf of the American cattle producers.
    The United States has one of the lowest beef greenhouse gas 
emission intensities, 10 to 50 times lower than other countries 
around the world. That statistic is not accidental. American 
cattle producers work hard to implement new technologies and 
practices that reduce our environmental impact while 
simultaneously increasing our efficiency.
    Farmers and ranchers face increasing pressure from 
consumers to be socially responsible while managing existing 
environmental responsibility and attempting to remain 
economically viable. According to the U.S. Environmental 
Protection Agency, direct emissions from cattle represent just 
2 percent of all greenhouse gas emissions in this country.
    Climate change policies that unfairly target cattle 
producers fail to recognize the positive role of cattle. Rather 
than waiting for Congress to adopt misguided policies that 
threaten the viability of this key industry in the climate 
fight, we hope to shift the conversation to continue to be the 
innovators.
    Cattle graze on over 660 million acres in the United 
States. That is nearly a third of our Nation's continental land 
mass. This acreage not only feeds cattle, but also sequester 
carbon. The ruminant grazing enhances sequestration. Emissions 
from cattle are a part of the natural cycle of the methane.
    Cattle consume grasses and then emit methane through 
belches as a part of the ruminant digestive process. In just 10 
years, more than 90 percent of that methane oxidizes in the 
atmosphere and converts to CO<INF>2</INF>. The CO<INF>2</INF> 
is then absorbed by grasses. Those grasses are eaten by cattle, 
and the process goes on and on.
    Methane has no long term impact on the climate when the 
emissions and the oxidation are in balance. While cattle are a 
nominal contributor to America's overall greenhouse gas 
emissions, our industry works to further increase our 
efficiency every day by implementing grazing management 
systems.
    Our operation developed a grazing management system through 
USDA's Natural Resource and Conservation Service, which guides 
our implementation of a rotational grazing system. Rotational 
grazing creates an opportunity for cattle to intensely graze 
pastures, thereby compounding carbon sequestration while 
naturally decreasing weed and invasive species growth.
    If producers have learned anything, it is that there is no 
one size fits all, no silver bullet solution. Cattle producers 
across the Nation

[[Page 7]]

effectively implement voluntary conservation practices with 
technical assistance from USDA and land grant universities. The 
benefit of technical assistance is its personalized approach. 
Local NRCS employees work with agricultural producers to 
implement a suite of conservation practices best suited to fit 
each individual need.
    Voluntary conservation practices supported by research and 
implemented by producers with technical assistance are the keys 
to increasing efficiency and resilience. The American cattle 
herd provides an incredible environmental benefit through 
unmatched ability to upcycle byproducts. Upcycling being 
defined as a concept of using discarded materials to create a 
higher value product.
    In addition to the cattle's ability to turn grass into a 
nutrient dense protein, cattle also upcycle other byproducts 
when they move from pasture to the feed yard. Ninety percent of 
the cattle feed yard diet is human inedible. At Redstone 
Feeders, we feed a byproduct of an ethanol called distiller's 
grain. By feeding distiller's grain to cattle, not only do we 
provide the animals with an essential set of nutrients, but 
simultaneously reduce the greenhouse gas emissions.
    Distiller's grain is just one example. There are many 
byproducts that are fed to cattle to enhance their diet in a 
safe and efficient manner, including potato peelings, bakery 
trimmings, even byproducts of chocolate.
    NCBA was a founding member of the U.S. Roundtable for 
Sustainable Beef. The roundtable is a multi-stakeholder 
organization which aims to demonstrate and improve beef 
sustainability. The roundtable began with a discussion on how 
we, as members of the beef value chain, can directly and 
measurably impact sustainability. This approach is unique from 
previous sustainability efforts, because it is anchored by the 
institutional knowledge of America's cattle producers.
    Farmers and ranchers are America's original 
conservationists. We provide a safe and affordable beef supply, 
and we work hard every day to ensure that we can pass our 
operations on to the next generation.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Wilkinson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Braun. Thank you.
    Mr. Macchiarola.

 STATEMENT OF FRANK MACCHIAROLA, VICE PRESIDENT OF DOWNSTREAM 
     AND INDUSTRY OPERATIONS, AMERICAN PETROLEUM INSTITUTE

    Mr. Macchiarola. Thank you, Chairman Braun, Ranking Member 
Whitehouse, and Senator Capito. Thank you for the opportunity 
to testify this morning.
    The subject of today's hearing raises important policy 
questions affecting our Nation's economic strength, energy 
security, and environmental stewardship. How we address these 
topics will have meaningful implications for our Nation's 
future and our standing globally.

[[Page 8]]

    Over the past decade, the United States has experienced a 
dramatic transformation in our energy landscape. Ten years ago, 
energy analysts and policymakers spoke in terms of energy 
scarcity with the expectation that we would predominantly be 
importing natural gas from the Middle East, Russia, and West 
Africa to meet our growing energy demand. On the petroleum 
side, a similar picture was emerging, with projections of flat 
domestic production and growing dependence on foreign sources 
of oil.
    As a result of oil and natural gas industry innovation, and 
the advancement of engineering technologies, such as hydraulic 
fracturing and horizontal drilling, we speak today in terms of 
energy abundance, and our Nation's energy future is bright. 
Domestic oil production has risen from 5 million barrels per 
day in 2009 to now more than 12 million barrels per day today. 
On the natural gas side, U.S. production of natural gas has 
increased by more than 50 percent over the last decade, with 
natural gas deliveries to electric power consumers doubling 
since 2004.
    American oil and gas development and production from 
unconventional shale resources has fundamentally changed the 
energy landscape while creating economic growth and significant 
employment opportunities across the country. And congressional 
leadership to end the crude oil export ban has favorably 
reshaped our Nation's energy security posture.
    The U.S. is poised to remain the world's leading producer 
of oil and natural gas, which will continue to help strengthen 
our economy and national security for years to come. Challenges 
remain, however. And the oil and natural gas industry is 
committed to meeting these head on. One such challenge includes 
addressing the risks associated with global climate change 
through collaborative efforts of private industry, Government, 
and the public.
    The oil and natural gas industry is focused on solutions to 
help reduce greenhouse gas emissions, while ensuring access to 
affordable and reliable energy that helps enhance our standard 
of living around the world. At the same time, the U.S. has 
become the leading producer of natural gas, CO<INF>2</INF> 
emissions here at home have declined to their lowest levels in 
a generation. From 2005 to 2017, the U.S. economy grew by 20 
percent, while CO<INF>2</INF> emissions fell by 14 percent 
overall.
    In addition to reductions in emissions of CO<INF>2</INF>, 
the growth of natural gas in power generation over the last 
several years has led to significant reductions in nitrogen 
oxide, sulfur dioxide, and particulate matter emissions, 
contributing to cleaner air for all Americans.
    Importantly, while we have experienced a dramatic increase 
in U.S. production of natural gas, emissions of methane from 
our industry have decreased over the past 20 years. The story 
here is the same. We have accomplished positive environmental 
outcomes by advancing technologies that ensure we are capturing 
both VOCs and methane.
    Our industry has been at the forefront of innovation, 
developing technologies to reduce emissions from hydraulic 
fracturing completions, storage tanks, pneumatic controllers, 
and leaks. We have worked directly with the EPA since the early 
days of the Obama administration in 2010 to ensure that EPA's 
regulations incor

[[Page 9]]

porate these and other effective emissions reductions 
requirements. And we continue to support these regulatory 
requirements.
    Our industry has also established the Environmental 
Partnership, a program for continuous improvement in 
environmental performance with an initial focus on VOC and 
methane emission reductions. There are currently 67 companies 
participating in the program, including 18 of the 20 top 
natural gas producers. Companies in the partnership agree to 
implement emission reduction programs for leaks, pneumatic 
controllers, and for liquids unloading operations.
    On the downstream side of our industry, more than 98 
percent of vehicles on the road use our fuels to conduct 
commerce, commute to work, go on vacation, and visit loved 
ones. Today this is done with cleaner fuels that allow 
automobile manufacturers to build engines that reduce 
emissions. This progress has helped drive significant 
reductions of major air pollutants, even as vehicle miles 
traveled have tripled.
    A strong natural gas sector and a strong oil sector is 
essential to our Nation. Our industry supports 10.3 million 
jobs in nearly 8 percent of the U.S. economy. More importantly, 
the men and women who work in our industry are committed to 
providing reliable and affordable energy, and to protecting the 
environment. After all, they live in the communities in which 
they work. Through a balanced approach that promotes innovation 
and smart regulation, we can provide affordable, abundant 
energy that Americans rely upon. And we can do it with an 
emphasis on environmental protection and stewardship.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Macchiarola follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Braun. Thank you.
    Mr. Durbin.

STATEMENT OF MARTIN DURBIN, PRESIDENT, GLOBAL ENERGY INSTITUTE, 
                    U.S. CHAMBER OF COMMERCE

    Mr. Durbin. Chairman Braun, Senator Whitehouse, thank you. 
Thanks for the opportunity to testify today.
    Let me start by saying the Chamber believes the climate is 
changing, and that humans are contributing to these changes. 
Inaction on climate is not an option, and there is much common 
ground on which all sides of this discussion should come 
together to address climate change with policies that are 
practical, flexible, and durable. We also believe in a policy 
approach that considers costs, benefits, and the 
competitiveness of the U.S. economy.
    In order to tackle the global climate challenge, we must 
commercialize and deploy clean energy technologies. It will be 
largely up to the business communities to develop, finance, 
build, and operate the solutions needed to power economic 
growth worldwide, mitigate greenhouse gas emissions, and build 
resilient, lower carbon infrastructure. In short, we will need 
more energy with fewer emissions. The good news is, we are up 
to the challenge.
    Thousands of companies have already taken voluntary steps 
to reduce emissions and have pledged further reductions. 
Sustain

[[Page 10]]

ability plans are now the norm for major corporations. Our 
Global Energy Institute has launched an Energy Innovates 
initiative to showcase the innovators, projects, and 
technologies that are shaping America's future energy 
landscape.
    The specific examples are included in my written testimony, 
but we have highlighted technologies such as battery storage, 
advanced nuclear, power plants that utilize CO<INF>2</INF> 
itself as an energy source, and energy efficient, smart 
neighborhoods. All of these technologies will be needed.
    Such technologies are being developed and deployed first in 
the United States, but ultimately, are an opportunity for the 
U.S. to become the world's leading exporter of clean energy 
technology. This will not only be a business opportunity and an 
economic boon, but also a way for the U.S. to take a leadership 
role in reducing global emissions and to improve the quality of 
life in developing countries that lack access to the basics, 
like electricity and refrigeration.
    These global realities illustrate the paramount importance 
of technological breakthroughs that will enable financially 
constrained developing countries to adopt the technologies 
necessary to slow and ultimately reverse emissions growth. The 
good news is that numerous technologies hold great promise to 
do just that, and that is why the Chamber has made the 
development and acceleration of these alternatives a top 
priority.
    All told, the private sector was responsible for more than 
$45 billion of energy related research and development in 2017. 
But we can't do it alone. There remains an important role for 
the Federal Government to play in technology development, 
including through the Department of Energy's National 
Laboratory System.
    However, statistics show that U.S. investment in R&D is 
only average compared to other developed nations. The Chamber 
has long supported increasing R&D budgets with programs like 
ARPA-E, a great example of what can be accomplished.
    We agree more must be done to meet the challenge of climate 
change. The Chamber has established a task force on climate 
actions, which will help us gain a better understanding of the 
range of mechanisms, innovations, and internal processes that 
our members are employing to address climate change. This 
dialogue will make us smarter about how existing policies and 
future proposals affect our broad membership. What we learn 
will help inform our approach to legislation and other policy 
proposals to address this important issue for our members, the 
Nation, and the world.
    That said, we believe there are concrete actions Congress 
can take now which would help accelerate the innovation agenda 
necessary to address this challenge. We recently led a letter 
with 27 organizations from across the political spectrum, 
calling on Senate leadership to schedule floor time for a 
series of legislative proposals which would reduce emissions. 
My written testimony highlights the specific bipartisan 
legislation the Chamber supports, many of which were introduced 
or are co-sponsored by members of this Committee.
    As we said in that letter, more needs to be done. But there 
is no reason to delay passage of initiatives we know would help 
us re

[[Page 11]]

duce emissions right now. Doing so would send a signal that 
Congress is serious about this issue.
    American businesses have a long history of rising to the 
world's challenges. Companies and entrepreneurs are bringing 
innovation, technology, and ingenuity to the climate change 
challenge. We believe combating climate change and growing the 
economy can and should go hand in hand. Our members are already 
hard at work in bringing solutions to the table.
    Thank you for the opportunity to testify. I look forward to 
your questions.
    [The prepared statement of Mr. Durbin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Braun. Thank you.
    Dr. Dutton.

   STATEMENT OF ANDREA DUTTON, VISITING ASSOCIATE PROFESSOR, 
  DEPARTMENT OF GEOSCIENCE, UNIVERSITY OF WISCONSIN-MADISON, 
                      GAINESVILLE, FLORIDA

    Ms. Dutton. Thank you, Chairman Braun, and Ranking Member 
Whitehouse, for inviting me to speak today.
    I am a geochemist and field geologist who conducts research 
on past climate and sea level change. The main focus of my 
research is the behavior of sea level and polar ice sheets 
during past warm periods to better inform us about future sea 
level rise.
    My research accomplishments have been widely recognized, 
for example, as a Fellow of the Geological Society of America, 
as a Fulbright Scholar, and as a newly minted MacArthur Fellow.
    I am here today to offer my expert opinion as a geologist 
and climate scientist on the scale of the challenge that we 
face from industrial greenhouse gas emissions and resulting 
human caused global warming.
    The devastating impacts of climate change will vary by 
region. Some will contend with worsened wildfires, while others 
will grapple with intensified inland flooding or rainfall, 
inundation from sea level rise, or more intense and slower 
moving hurricanes.
    This list may evoke personal memories of extreme weather 
events from the past few years. That is because climate change 
is already here, and it is going to get worse before it can get 
better.
    All regions of the U.S. will experience higher 
temperatures. Consider Florida, where I have lived for the past 
9 years. In 2000, Miami had 24 days with a heat index at or 
above 105 degrees Fahrenheit, the official danger level 
according to the National Weather Service. By 2030, Miami is 
projected to experience 126 danger days a year, that is about 1 
in 3 days, where crippling heat will make it dangerous for 
people to be outdoors.
    Are voluntary reductions in industrial emissions enough to 
avoid such futures? The answer is no. They don't even come 
close. Voluntary reductions are but proverbial drops in the 
bucket.
    Because of decades of relative inaction, the scale of the 
problem has grown, and the time to act is rapidly shrinking. 
Policy solutions must therefore be bold, moving us rapidly 
toward net zero emissions, with the aid of stringent and 
integrated policy interventions, including putting a price on 
carbon.

[[Page 12]]

    Reductions do not happen in a vacuum, though. They are 
driven by policy, which in turn drives innovation to meet new 
targets.
    As a geologist, with the perspective that deep time brings 
to this issue, I offer these four critical insights. No. 1, we 
are conducting an uncontrolled and unprecedented experiment 
here on planet Earth. Our extensive knowledge of past climate 
change reveals that there is no other event in Earth history 
that approaches the combined rate and magnitude of change that 
we are causing, aside from cataclysmic events such as the 
massive asteroid impact that marked the end of the Cretaceous. 
While Earth survived that impact, the dinosaurs did not, nor 
did about 75 percent of all marine species. Climate change is 
not so much about saving our planet, then, as it is about 
maintaining thriving ecosystems that support human 
civilization.
    No. 2, while there are natural, stabilizing processes that 
draw down carbon dioxide levels in the atmosphere, they are too 
slow, by several orders of magnitude, to keep up with the rate 
at which we are pumping them into the atmosphere. It would take 
many thousands of years to draw down the carbon dioxide that we 
have already emitted.
    No. 3, our actions today will impact the climate for 
millennia to come, a lesson drawn from studies of geological 
changes. The U.S. leads the world in cumulative carbon 
emissions. The faster we slash these emissions, the less 
dangerous the outcomes. Committing to additional fossil fuel 
infrastructure, conversely, locks in more dangerous impacts.
    No. 4, finally, the geologic record tells us that we can 
expect big impacts from what sound like small perturbations. We 
are already witnessing the effects of climate change at just 
over 1 degree Celsius, and every fraction of a degree matters. 
For comparison, Earth was no more than 4 degrees Celsius colder 
at the peak of the last ice age, when ice sheets more than a 
mile thick covered parts of North America and mammoths and 
mastodons roamed through present day Florida.
    My own research tells us that increasing Earth's 
temperature by as little as 1 degree Celsius could commit us to 
at least 6 meters--that is 20 feet or more--of sea level rise. 
If we don't enact policies to reduce greenhouse gas emissions 
as the best available science dictates, we are committing to a 
very expensive and dangerous future.
    Talking to Floridians on the front lines of sea level rise, 
I know that they are deeply concerned about climate change and 
want to know what is being done. During the recent global 
climate strike led by our youth, millions took to the streets 
telling us in no uncertain terms that it is up to us to act now 
or we take their future from them. As a mother, as a scientist, 
and as a citizen of the United States, I hear their call. And I 
hope that you will too.
    Thank you.
    [The prepared statement of Ms. Dutton follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Braun. Thank you.
    Mr. Wilson.

[[Page 13]]

   STATEMENT OF JOHN WILSON, VICE PRESIDENT AND DIRECTOR OF 
     CORPORATE ENGAGEMENT, CALVERT RESEARCH AND MANAGEMENT

    Mr. Wilson. Chairman Braun, Ranking Member Whitehouse, 
thank you for your invitation to speak before you today.
    My name is John Wilson, and I am Vice President and 
Director of Corporate Engagement for Calvert Research and 
Management. Our firm sponsors one of the largest and most 
diversified families of responsibly invested mutual funds. We 
seek to generate favorable investment returns by allocating 
capital consistent with financially material environmental, 
social, and governance issues and through structured engagement 
with our portfolio companies.
    Climate change is an urgent issue for us as fiduciaries 
because investment returns depend on a robust and growing 
economy. The U.S. Government's Fourth National Climate 
Assessment makes clear that unchecked climate change could 
reduce economic activity in several U.S. sectors by hundreds of 
billions of dollars by the end of the century. We believe our 
investment portfolios will be exposed to these risks within the 
coming decades, well within a typical investment time horizon.
    As one element of our overall investment analysis, we 
evaluate the exposure of companies we invest in to the risk of 
climate change. This assessment is consistent with well 
grounded empirical evidence. A recent meta-analysis of 32 
studies found a negative correlation between corporate carbon 
emissions and financial performance.
    Many mainstream investors and companies now support action 
on climate change. Three hundred and sixty investors with $36 
trillion under management have committed to engage the top 
greenhouse gas emitting companies in dialogue about how they 
can drive a transformation toward a clean energy economy and 
achieve the goals of the Paris Agreement.
    On the corporate side, nearly 7,000 companies worldwide now 
report on greenhouse gas emissions and mitigation strategies to 
the Carbon Disclosure Project, the most comprehensive database 
of this information in the world. According to CDP, the 215 
largest global companies alone report over $1 trillion of 
capital at risk from climate impacts, many of which may be felt 
in the next 5 years.
    Among the many industries making commitments to transform 
their business models, at least 17 U.S. utilities have pledged 
to cut emissions by at least 80 percent by 2050, to the 
Chairman's earlier point. And all major automotive companies 
are investing heavily in low or no carbon transportation 
alternatives, and committing to expand their line up of 
electric powered vehicles.
    Despite the efforts being made on all sides, consensus is 
emerging among both investment professionals and corporate 
executives that voluntary efforts will not be enough. Business 
incentives are misaligned because those responsible for the 
emission of greenhouse gases do not bear the costs of climate 
related harms such as extreme weather events, drought, or sea 
level rise. Instead, those costs are borne by the entire 
market.
    For this reason, a coalition of 515 institutional investors 
with $35 trillion under management urged world governments to 
enact enabling policy to meet the goals of the Paris Agreement, 
in part by

[[Page 14]]

helping to accelerate sound business investments in climate 
mitigation. A clear policy signal, such as a carbon price, 
would allow investors to better quantify the economic 
implications of climate change on investment decisions.
    For companies, it would help to overcome the pressures of 
short-termism, which sometimes hampers long term innovation. We 
observe, for example, that a mix of subsidies and requirements 
has helped to incentivize research and development that has 
rapidly reduced the cost of wind and solar energy over the last 
several years.
    Both corporations and investors can and should make 
important contributions to the public dialogue about climate 
change policy. We are concerned, however, that some companies 
have failed to align their public policy engagements with their 
long term business strategies to invest in climate solutions. 
In response, 200 investors with $6.5 trillion under management 
forwarded a letter to company CEOs calling on them to harmonize 
their lobbying activities with the goals of the Paris 
Agreement.
    This letter asks companies to develop governance procedures 
to ensure consistency between long term business strategy and 
public policy engagement, including both direct engagement as 
well as lobbying by intermediaries, such as trade associations 
and social welfare organizations.
    We are pleased that some of these third parties have 
recently expressed support for action on climate change, and 
encourage them to back up their words with substantive action 
consistent with the scale of the economic challenge that we 
face.
    Most concerning to us as investors is the lack of U.S. 
leadership in climate policy. Rather than supporting investors' 
and companies' efforts to make economically rational long term 
investment decisions, the Federal Government is moving in the 
opposite direction, first by initiating steps to withdraw from 
the Paris Agreement, and most recently by seeking to block 
States' efforts to address the issue.
    A failure of the U.S. to address climate change could 
impact U.S. competitiveness relative to countries that are 
supporting the next generation of technology and solutions. 
Investors and companies across the globe are collaborating with 
the public sector to address the risks that greenhouse gases 
pose to portfolios and long term business investment. The 
absence of U.S. Government leadership from this partnership 
ensures that these technologies and solutions will arise 
elsewhere.
    We urge the Committee to support legislation that will 
allow us to rapidly scale investments in climate change 
mitigation, and I would like to thank the Committee for 
allowing me the opportunity to share my perspectives on these 
important topics.
    Thank you.
    [The prepared statement of Mr. Wilson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Braun. Thank you.
    I am going to start with the questions, and I would like to 
address the first one to Dr. Dutton.
    I really do believe that the dynamic we are facing is 
significant. I think--Senator Whitehouse and I have talked 
about modeling that is out there, that is going to give 
believability to where you

[[Page 15]]

don't--it is going to be hard for any of us to react to 
something where the world is going to end in 12 to 15 years. We 
are already beyond the point of redemption, I am going to 
guess, if that happens.
    I think to make this sellable to the American public--we 
all know that sea levels will rise over time. I think you 
referred to 6 meters, over what period of time? When do you 
expect that?
    Ms. Dutton. Great question. So my research, a lot of it has 
focused on looking at past warm periods, trying to understand 
how much the ice sheets melted and then how quickly that 
happened, which is what you are asking there.
    Senator Braun. Yes.
    Ms. Dutton. So that 6 meters, or 20 feet, will not happen 
in your lifetime or mine. But the problem is, we don't know the 
full answer to that question yet. And that is in part because 
we have never been around to witness dynamic retreat of 
Greenland and Antarctica of the type that is starting to happen 
now. So we don't know all of the physics involved in that ice 
sheet retreat. And that is the largest uncertainty when we look 
at sea level projections into the future.
    However, having said that, we are certain that sea level is 
rising. So that uncertainty about exactly how quick shouldn't 
really be the focus of the issue. Yesterday in the Miami 
Herald, they reported that the northern part of Key Largo has 
now been underwater, a neighborhood, for more than 40 days in a 
row. And they are in about a foot of water.
    Right now, tides up and down the U.S. east coast from New 
York to Miami are running about a foot to a foot and a half 
higher than predicted. It is not just because of sea level 
rise, but additional impacts of swell, and when you get intense 
rainfall, there is no place for it to go.
    So these effects will in fact happen sooner than most 
people think they will.
    Senator Braun. What would be the next two or three biggest 
general impacts? We all know sea level, because we hear that 
all the time. Can you graphically give us what you think the 
next two or three biggest differences would be in terms of how 
it is going to impact everyday life?
    Ms. Dutton. Right. Well, there are a myriad of ways. As you 
know, there is a domino effect as well.
    But one thing I have been focusing on recently when I give 
public talks is just the heat, which came up in my testimony 
today. So if you have experienced heat of 105 degrees, it is 
crippling. Even though I work most of the day indoors, and I go 
outside just to walk to my car, it feels miserable, right? You 
can't do much outside then.
    So heat, there is a limit of the heat that we can tolerate 
as humans and still perform as we expect to. So heat is a big 
one.
    Another one is the wildfires that we are now seeing play 
out across the western U.S. The area of those wildfires is 
growing, and a lot of it is attributable to climate change.
    And hurricanes are more intense; slower moving hurricanes 
are going to be big contenders.

[[Page 16]]

    Part of the reasons I highlight these wildfires and 
hurricanes, they require huge responses in terms of Federal 
disaster management. And the rapid intensification that we have 
seen in some of these hurricanes, which is a trend that should 
increase with increasing temperatures, makes it very difficult 
from an emergency response perspective.
    Senator Braun. One final question on the subject of what 
might happen. Does climate change in any fashion have an effect 
that would not be catastrophic? In other words, in places 
where, just to get it out there, I would like to hear, or is it 
just universally going to be destructive and bad?
    Ms. Dutton. So you may argue that some people, it might 
benefit them. So maybe you can grow apples farther north or 
something like that. The problem is, the rate at which the 
temperatures are changing and these zones are migrating 
northward are too fast for us to keep up in terms of 
infrastructure.
    We have developed and built things based on the climate of 
that region. To expect farmers to say, oh, well, instead of 
planting this, now I am just going to completely change and do 
something different, we just can't adapt that quickly. And that 
rate of change is really the biggest challenge.
    Senator Braun. Thank you.
    I am going to go to Senator Whitehouse here in a moment.
    But I think the thing I grapple with mostly is how we 
marshal the resources, especially in the context of a place 
that is not functioning here well currently, with trillion-
dollar deficits, when you look at what the cost would be. So 
there is going to be a lot of practicality that is going to 
have to be applied, in how you start the correction.
    That is why I think that the more accurately we can have 
models that we can trust would be kind of the selling tool to 
take this in a broader way, not only here, but to convince 
industry and emitters across the board that it is happening, 
and to make it realistic on the other side of how we marshal 
the resources to combat it.
    Senator Whitehouse.
    Senator Whitehouse. Thank you very much, Chairman, and 
thank you again for this hearing.
    Let me start by asking Mr. Durbin and Mr. Macchiarola 
whether your trade associations ordinarily develop policy 
positions based on the consensus position of your member 
companies.
    Mr. Durbin. Yes, we strive for consensus with the members 
to reach a policy position.
    Senator Whitehouse. Mr. Macchiarola.
    Mr. Macchiarola. Yes, Senator, policy establishment at API 
is largely based on the consensus based approach, as well as 
principle based approach, reflecting the views of the broad 
membership of the association.
    Senator Whitehouse. So, Mr. Durbin, let me follow up a 
little bit more in detail about the Chamber.
    As I understand it, the Chamber has several dozen policy 
committees. And your member companies can pay extra to sit on 
those policy committees, is that correct?
    Mr. Durbin. Well, the policy committees, there are various 
affiliates, including the Global Energy Institute that I lead, 
where mem

[[Page 17]]

bers can pay to be a part of that group. But the broad policies 
of the U.S. Chamber are set by the board of directors of the 
broad U.S. Chamber.
    Senator Whitehouse. Is there a policy committee on 
environment and energy?
    Mr. Durbin. There are two separate committees that are open 
to the broad membership; again, every member, one on energy and 
agriculture, the other on environment and air. Just had a call 
with them yesterday. Yes, those committees do exist.
    Senator Whitehouse. If there is a call that goes out to the 
members of those committees, do you contact every single member 
of the Chamber? Or is there some way in which companies have 
identified their interest in that committee, and you have a 
list?
    Mr. Durbin. Exactly. They opt in.
    Senator Whitehouse. And do they compensate the Chamber in 
any way for the right to opt in?
    Mr. Durbin. Not beyond their membership.
    Senator Whitehouse. It is a function of their regular dues?
    Mr. Durbin. Indeed.
    Senator Whitehouse. Can you tell me which companies--this 
probably should be a question for the record--the two 
committees that you mentioned, can you tell me which companies 
sit on them?
    Mr. Durbin. Certainly, I will take that as a question for 
the record.
    Senator Whitehouse. Great. I don't expect you to have that 
off the top of your head.
    Do you know how much the companies on those two policy 
committees contributed to the Chamber, let's say, in 2018, to 
the Chamber and its affiliates?
    Mr. Durbin. I don't. I can look into that, and not every 
company pays the same amount.
    Senator Whitehouse. We will make that a question for the 
record then, also.
    Do you know how much in total fossil fuel industry 
companies and allied organizations contributed to the Chamber 
in 2018?
    Mr. Durbin. Again, I will get back to you on that.
    Senator Whitehouse. OK, we will make that a question for 
the record, too.
    Do you know if the Chamber and its affiliates take money 
from non-corporate sources of funding, such as political 
advocacy groups?
    Mr. Durbin. Not to my knowledge. And I promise I won't play 
this line too frequently today, but yesterday was--now there 
are 6 weeks. So I would be happy to get back to you, like so 
many of those, I would be happy to get back to you on a 
question for the record.
    Senator Whitehouse. OK, we will follow up.
    Do you know if Marathon Petroleum is a member of either of 
the two policy committees that you mentioned?
    Mr. Durbin. I believe they participate.
    Senator Whitehouse. In both?
    Mr. Durbin. I don't know.
    Senator Whitehouse. OK. So a lot of this is going to end up 
as questions for the record, and I appreciate that you are 
newer there, and that some of these are specific questions that 
you shouldn't be

[[Page 18]]

expected to know the answer to off the top of your head. So 
turning them into questions for the record is fine with me.
    Do you know much ExxonMobil contributed to the Chamber and 
its affiliates in 2018?
    Mr. Durbin. I do not. I will get that.
    Senator Whitehouse. Ok. Can you tell me what Chamber member 
companies were consulted by the Chamber about the Chamber's 
decision to sue EPA to block the Clean Power Plan?
    Mr. Durbin. Again, I can get back to you on the process 
that was used to determine that.
    Senator Whitehouse. I have the question with respect to the 
Chamber's decision to sue EPA to block the Clean Power Plan, 
the same question regarding the Chamber's decision to intervene 
in litigation to support the Trump so called ACE rule, the 
replacement for the Clean Power Plan. And third, the Chamber's 
decision to fund a study critical of the Paris Agreement that 
has since been widely debunked. So that is a QFR, I guess, 
times three.
    Mr. Durbin. OK.
    Senator Whitehouse. So my time has expired for this round 
of questioning, and I will yield back. My apologies for going 
over a few seconds.
    Senator Braun. Thank you. It looks like we are going to 
have plenty of time to ask questions, aren't we? Good.
    [Laughter.]
    Senator Braun. One of the vexing issues of what we are 
dealing with is that there has been great progress made here in 
our own country. I do remember vividly when the Cuyahoga River 
caught on fire. I couldn't believe that could even happen. I 
know that in even a local river, the White River, borders the 
northern edge of our county. Never, 20, 25 years ago, would we 
have fished in it, let alone eat the fish. Now I routinely see 
eagles along it. And we do fish, and eat the fish.
    So in places, we have made great strides. I really think it 
is important that I think we are leading the way, but we were 
the largest emitters. I guess the only good news is 
internationally, we have been eclipsed by China.
    So I don't want to get, and I am really worried about how 
we get the rest of the world to see the light when coal 
facilities are still being built, and it doesn't seem like that 
same trajectory is necessarily occurring.
    Mr. Wilkinson, I want to ask you, because I heard when it 
comes to something like beef production, did I hear correctly 
that the methods used elsewhere would emit--what was the 
quantity more in terms of greenhouse gases?
    Mr. Wilkinson. Ten to 50 percent, or 50 times more than us.
    Senator Braun. That is what I thought I heard you say. That 
is unbelievable in terms of how the methodologies could be that 
different. I think where beef production in the U.S., you said, 
was 2 percent of emissions, is that within the country, or is 
that across the world?
    Mr. Wilkinson. No, that is within the country.
    Senator Braun. OK. And then, what is it in terms of beef 
production across the world? Assuming if we are much better, 
where

[[Page 19]]

would it stack up in terms of what that particularity would be 
generating across the world? Do you know that?
    Mr. Wilkinson. Depending upon the metrics that you use to 
measure that, it is anywhere from 3 to 5 percent across the 
world. We are statistically lower than that because, frankly, 
we are more efficient. The example I can give you with that is 
back in the 1970s, we had a third more cows. And yet we produce 
the same amount of beef today with a third less cows.
    Senator Braun. Better feed conversion.
    Mr. Wilkinson. Better feed conversion, better genetics. Our 
producers are--that is their life blood. They want to improve 
all of those traits.
    Senator Braun. And could you cite a couple of the methods? 
I was a turkey farmer for 32 years. I know all the advances 
that were made, better feed conversion. Of course, that lowers 
your footprint.
    What has happened in the cattle industry? I think that is 
one of the things that has been thrown out there in kind of a 
figurative way as being a part of the problem. I am glad you 
pointed out what that is percentage wise here and across the 
globe.
    Talk about a couple or three things that have really made a 
difference over the last decade.
    Mr. Wilkinson. Well, in my lifetime, the biggest one I can 
point to right off the top is rotational grazing, intensive 
grazing. When I started out in the industry, when my brother 
started out in the beef business, we didn't do rotational 
grazing. It seemed counter-intuitive, the fact that we would 
put our cow herd on a confined area and let them graze that 
area more intensely. We just let them generally run over the 
tract of land.
    Now we specifically have those areas fenced off, and we 
rotate them in and out of those various paddocks. As a result 
of that--and again, it is logic, I guess, when you examine it 
after this many years--as a result of that, the cattle eat down 
the grass, the root system goes down deeper into the soil, and 
more carbon is sequestered.
    Another one is distiller's grain. That is a great example 
of--it causes us to use less corn, and it is a byproduct. But 
it has improved the efficiency of the animals.
    And I have to end up saying for the seed stock producers 
that we represent that the genetics of the animals, that the 
seed stock, if you looked at what was a champion bull in 1950 
in the Angus breed, it is going to be about this high. I mean, 
that animal is now bigger in stature; it can put more pounds on 
more efficiently. So our seed stock producers are doing a 
wonderful job.
    Senator Braun. It begs the question--and give me a quick 
answer here--why has not the rest of the world copied what we 
have done here, if you are assuming that we still need beef 
production? Why haven't those techniques been used across that 
other 3 percent that maybe totals 5? It seems like we could get 
emissions from beef production almost down to 3 percent in 
total if others would copy the methodology.
    Mr. Wilkinson. Well, Senator, the first one I am going to 
have to point out is India. They have an affinity to not want 
to eat beef. So there is a bit of a problem there.

[[Page 20]]

    But if you look at Australia, Brazil, two of our biggest 
competitors, our geography gives us a competitive advantage 
over those areas. We are not having to deforest, cut down 
forests, to increase our grazing capabilities. We have natural 
prairies and forests where we can graze at. We can take out the 
fire load out of our forests rather than cut them down.
    Senator Braun. So it gives us a comparative advantage.
    Mr. Wilkinson. Yes, it does give us some advantage.
    Senator Braun. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you again, Chairman.
    Mr. Durbin, I will follow up with two questions on our 
previous line of questioning. Am I correct that there are 
different membership levels in the U.S. Chamber of Commerce, 
Signature, Advantage, Elite, and C100?
    Mr. Durbin. There are different levels.
    Senator Whitehouse. And am I correct that your Web site 
shows that the option to serve on these policy committees is 
for those who subscribe to the Elite and C100 higher membership 
levels?
    Mr. Durbin. Again, let me get back to you on that question.
    Senator Whitehouse. OK. Let me put the Web page into the 
record as an exhibit so it is clear what I have been talking 
about.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. Just today, the Chamber scorecarded the 
Senate resolution to disapprove the Trump ACE rule. My 
information is that the so called ACE rule requires zero 
emissions from natural gas. And further, that from coal, while 
it encourages certain efficiency improvements, it offsets those 
with opportunities for increased generation and could actually 
increase emissions.
    So again, you guys just put this out today, neither you nor 
I have had a chance to review it. But I would like to ask you, 
the Chamber, for the record, to respond to how it is that the 
Chamber is willing to support a rule designed to reduce carbon 
emissions that actually doesn't reduce carbon emissions, and 
appears to have been a product of the fossil fuel industry's 
work.
    I don't want to sandbag you with that, because I didn't get 
it until just now myself. So we will leave that as a question 
for the record.
    Mr. Macchiarola, let me ask you a little bit about API. In 
my experience, ordinarily, trade associations set their 
membership dues with some correlation to the member 
corporations' revenues or profits. Is that the way API 
operates?
    Mr. Macchiarola. Thank you for your question, Senator. API 
generally sets its dues structure on the basis of production on 
the upstream side, throughput on the downstream side.
    Senator Whitehouse. So bigger companies should be expected 
to pay more.
    Mr. Macchiarola. Larger producing companies within the 
United States would be expected to pay more, that is correct.
    Senator Whitehouse. OK. You--API, I mean--supported the 
Trump proposal to scrap the rules regarding methane emissions 
at oil and gas facilities. Is that correct?

[[Page 21]]

    Mr. Macchiarola. API supports the current methane rule in 
place in 2011 and 2016. We support the----
    Senator Whitehouse. The August proposal by EPA, you 
publicly support it, correct?
    Mr. Macchiarola. Correct.
    Senator Whitehouse. At the same time, ExxonMobil and BP and 
Shell publicly criticized that proposal. Based on the way in 
which you have said you calculate your dues, I would expect 
that ExxonMobil and BP and Shell would be three of API's 
biggest contributors, correct?
    Mr. Macchiarola. That is correct, Senator.
    Senator Whitehouse. I am interested in how API took this 
position, just to use this as one example, contrary to the 
public positions of three of its largest members. Can I ask you 
just to frame this out, how much money ExxonMobil, BP, and 
Shell gave to API for 2018?
    Mr. Macchiarola. Senator, with respect to the specific 
question regarding membership dues, I don't know the answer to 
that. So I will have to get back to you for the record.
    Senator Whitehouse. Not a problem. That is not a problem at 
all.
    Mr. Macchiarola. With respect to the consideration of 
support or opposition to a specific rulemaking, as you referred 
in your previous question, Senator, we are a consensus based 
organization that takes into account the views of the broad 
spectrum of the membership, and work very hard to represent the 
industry and not one individual member, regardless of the size 
of the member.
    Senator Whitehouse. Let me add to the QFR question you are 
taking back also Marathon Petroleum, in addition to the three 
companies I named, in terms of what their contributions were to 
API during or for 2018.
    The reason I am asking these questions--may I extend it 
another minute? The reason I am asking these questions is 
because Exxon and BP and Shell have taken a number of public 
positions that are contrary to positions that API then comes 
and pushes in Congress. The most significant of them is that 
Exxon, BP, and Shell all publicly say they support a price on 
carbon.
    So my question to you is, can you share with us any sincere 
effort by ExxonMobil, BP, and Shell to support carbon pricing 
within your organization or to have you reflect their views in 
opposing the methane rule? What I am trying to get at is the 
extent to which Exxon, BP, and Shell are just basically 
greenwashing themselves with public statements while leaving 
you to do the dirty work of opposing things they claim to 
support.
    So I don't know what information you can give me along 
those lines, but that is where this line of questioning is 
trying to get. I see very big companies that presumably 
contribute very significantly to your organization that seem to 
be economic winners from things you do that they claim not to 
support. And that is the discrepancy that concerns me here.
    Mr. Macchiarola. Senator, it doesn't--so that is not 
unusual for trade associations, first off. And second, it 
doesn't fall on that side of the ledger every time. For 
example, I look at the issue of CAFE standards, we had member 
companies who have positions that

[[Page 22]]

would be more against your position on CAFE closer to the 
position of the Trump administration. And our association 
actually did not take that position.
    So again, to your earlier point, sir, we are a consensus 
based, principle based organization. We are not an organization 
that is dictated by one member view. We wouldn't last as a 
trade association that long, because we don't represent one 
member, we represent the broad spectrum of the industry.
    I appreciate the point, Senator.
    Senator Whitehouse. I've gone well over my time, and I will 
just make a question for the record to see whatever documents 
you have that document that Exxon, BP, or Shell actually 
pursued their concerns within your organization as opposed to 
saying one thing to the public and using your organization to 
do the opposite. I will follow that up with the question for 
the record.
    Mr. Macchiarola. Senator, to the extent those materials are 
not proprietary, I am happy to share anything I can to shed 
some light on a pretty robust policy discussion that again, 
wants to end up with an outcome that reflects the broad view of 
the industry, not the view of a specific member. But thank you.
    Senator Whitehouse. Thank you, I appreciate it.
    Thank you, Chairman Braun. I apologize for going 3 minutes 
over.
    Senator Braun. Senator Carper.
    Senator Carper. I was happy to yield my 3 minutes.
    Welcome, one and all, to this hearing. Ironically, this 
kind of hearing is a timely hearing, it comes on the heels of a 
weekend, a weekend that I spent in Aspen, at the Aspen 
Institute Seminar where we had Democrats and Republican House 
members and a couple of Senators. And we had folks from a 
couple auto companies and people from all different walks of 
life and businesses who have an interest in these issues.
    In fact, the intersection, if you will, of how do we get 
cleaner air, cleaner water, address climate change, and create 
economic opportunity. I am one of those people who believe it 
is possible to do both. In fact, it is necessary for us to do 
both.
    I am a retired Navy captain, a P-3 aircraft mission 
commander, Vietnam veteran. Tomorrow morning, in fact, I will 
be at the Naval Air Station in Jacksonville, Florida, with my 
flight suit on, and go out and fly with a P-8, a new P-8 air 
crew, and go out and drop some torpedoes out in the ocean. 
Hopefully not too close to Russian submarines, but we will see.
    [Laughter.]
    Senator Carper. Last weekend, there was a lot of news in 
Florida, because Miami is flooded again. Again. Not the first 
time. It won't be the last time. And it is just getting worse.
    We are not that far away from a place you heard about a lot 
last year, Ellicott City, Maryland. My wife was just there, 
went there with some of her friends, just to go on the heels of 
all the bad weather they had, just to demonstrate some 
solidarity and help do something for their economy and stay 
there for a couple of nights and eat in their restaurants.
    As you know, they have had two 1,000 year floods in like 18 
months. People say, what is a 1,000 year flood? It is something 
that

[[Page 23]]

happens every 1,000 years. They have had two of them in 18 
months. So something is happening. I live in the lowest lying 
State in America, Delaware; we are sinking, and the seas around 
us are rising. So this is real for us. And we want to make sure 
that we address it.
    And as it turns out, it is not just enough to do rules and 
regulations. It is not just enough to rely on innovation. We 
need to do both. And I say probably once a day, we have to be 
able to walk and chew gum at the same time. It has probably 
been said here already. There is an opportunity to do both, and 
we need to do both.
    My sister and I were just barely teenagers and we were 
driving back from Beckley, West Virginia, where we were born, 
back to Danville, Virginia, where we were growing up, and my 
mom was driving in our 1955 Chrysler Plymouth, which was like a 
tank of a car. We were up mountain roads, and it started 
raining, bad thunderstorms. She lost control of the car, 
bounced off a rock cliff on the right side, over to the left 
side, down the mountainside, over and over and over and over 
again. Kind of came to a rest, and we were all thrown out of 
the car, we had no seatbelts. They didn't make seatbelts in 
most cars, and the auto industry did not receive them warmly 
when they were pressed to do that.
    I love the auto industry. I have worked for years to be 
supportive of the auto industry. I still go to the Detroit Auto 
Show just about every year. We had auto people with us at this 
last weekend.
    And I have been working and talking over the last week with 
Michal Freedhoff, who is a chemist, a Ph.D. chemist, and a 
member of our EPW staff. Smart as a whip. And we have been 
talking to representatives from all the major auto industries, 
auto companies, and asking what we can do to be helpful for 
them.
    They are looking for a certain predictability, I think most 
businesses look for a certain predictability, that is what they 
are looking for with respect to fuel efficiency standards. The 
Obama administration left in place a rule, regulation that 
provided very rigorous standards between 2021 and 2025, I think 
about 5 percent increases a year. What the auto industry is 
asking--they are not asking to get rid of fuel efficiency 
standards, they are asking for some near term flexibility. 
Maybe 3 percent instead of 5.
    And they all wrote a letter to the President about a month 
or two ago and said, Mr. President, you think you are helping 
us out by saying we are basically going to flat line 
everything, like we did in the 1970s, when we raised fuel 
efficiency standards; remember CAFE? And we hit the target, 27 
and a half miles and then just, we went to nothing more, and we 
stayed there for like 20 years. Maybe more than 20 years.
    And the auto companies said, we don't want to do that, that 
is not what we are asking for. They are going to build a lot of 
electric powered vehicles; they are going to build hydrogen 
powered vehicles. And what we are going to do in this Committee 
and in the legislation that we have reported out to Surface 
Transportation, is help facilitate, enable them to be 
successful when they build those vehicles, by providing money 
for charging stations, electric vehicle fueling stations, 
hydrogen powered vehicles. That is part of what we are going to 
be doing.

[[Page 24]]

    And seat belts, catalytic converters, air bags; as much as 
I love the auto industry, they weren't anxious to do any of 
those things. And now they advertise their products, how safe 
they are and all this stuff they used to oppose.
    So I just want to--that will be an opening statement, I 
have an opening statement for the record, Mr. Chairman. But I 
had to just, that was an audible, as they say in football, that 
was an audible.
    So I do have a question or two, if I could, Mr. Chairman.
    Senator Braun. Yes.
    Senator Carper. Thanks so much. I apologize for being here 
so late. We had a prayer breakfast in Wilmington, Delaware, 
this morning, and James Lankford from Oklahoma was our guest 
speaker. It was great.
    This would be for Frank, who I think is somebody who's 
known Mary Frances Repko for a year or two. I am reminded that 
every now and then I will hear somebody say in the meeting 
room, they will say, someone who is my opponent doesn't have to 
be my enemy.
    Mr. Macchiarola. That is absolutely true, Senator.
    [Laughter.]
    Senator Carper. Might be true with you and MF; I hope so.
    In your testimony, you described the investments in 
innovative air pollution reduction technologies that have been 
made by your industry. The question goes on to talk about lead, 
which everyone agrees harms children's brains. One of the six 
criteria air pollutants referenced in your testimony.
    The thing is though, getting the lead out of gasoline was 
not a voluntary measure, as you recall. It was a mandatory EPA 
rule that was, I think, initially opposed by, I think, by the 
organization that you represent here today.
    I think somebody probably already mentioned this to you 
before I got here, but I would like to ask, Mr. Chairman, for 
unanimous consent to insert a copy of the API's testimony 
opposing EPA's rules to remove lead from gasoline into the 
record.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. And my question would be, do you agree that 
this phase out never would have happened if EPA had just left 
it, or may--I will say this, it is a better way to ask this 
question. Would you agree that this phase out might never have 
happened, or it would have taken a whole lot longer if EPA had 
just left it up to the industry to get the lead out 
voluntarily? That is not a trick question, it is just a 
question from my heart.
    Mr. Macchiarola. Yes, thank you for your question, Senator.
    It is hard to predict what might have happened, but I 
certainly take your point that sometimes Government action is 
required to make progress on the environment. We at API support 
that, we support a wide measure of rulemakings where the 
Government steps in and takes action.
    But we also have worked very hard as an industry to commit 
ourselves to reducing emissions through our own technological 
advancements and either not waiting for regulation or doing it 
on top of regulation. I think a perfect example of that is what 
I spoke of earlier, the environmental partnership, which is a 
program of large

[[Page 25]]

member companies and small companies who join together to share 
practices and to take action on reducing methane emissions. And 
the progress in just a short period of time, less than 2 years, 
has been remarkable.
    The industry, while producing--increasing production since 
2006 by more than 50 percent of natural gas, methane emissions 
have remained flat. That is a recent NOAA study on the 
industry.
    So I do certainly agree with your point that oftentimes, 
Government action is required to make this progress. But we as 
an industry are committed to reducing emissions through our own 
activities.
    Thank you.
    Senator Carper. Thank you very, very much, Frank.
    Could I just have a minute to ask something of----
    Senator Braun. One quick one.
    Senator Carper. Thank you--of Dick Durbin's nephew. Nephew, 
right? I think.
    Cagoule, I could barely spell cagoule a couple of years 
ago, now I use it a lot. But there used to be a time when we 
had this hole in the ozone, as you recall. And people tried to 
figure out what was causing that. It turns out it was 
chlorofluorinated carbons, and it was coolants out of 
refrigerators and stuff. So we stopped using those and phased 
those out and replaced them with HFCs. We find that that is 
good for the hole in the ozone but not so good for climate 
change.
    So now a number of companies, Honeywell is one of them, 
Kumars is one of them, these others, American companies, have 
developed a follow on to the HFCs. They are good for the hole 
in the ozone and good for climate. And we need the Senate to be 
able to vote to ratify a treaty, it flows out of the Montreal 
Protocol.
    There are a bunch of us who want to do it, a bunch of 
Democrats and Republicans, led largely by our colleagues from 
Louisiana. Any quick comments on that? And I appreciate your 
support and the support of the Chamber on this.
    Mr. Durbin. Thank you for the question, Senator. Again, I 
agree with your premise, too, that there are times that the 
regulation does help move things forward for us in the 
environmental arena. I do think that the example you presented 
there on the stratosphere for ozone is an opportunity for us to 
work together to continue that and make that progress.
    Senator Carper. That would be great.
    Mr. Chairman, that is a great opportunity for us to work on 
this stuff together. I hope that we will. We can do both. We 
need to do both.
    Thank you all.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Thank you, Chairman Braun and Ranking Member Whitehouse, 
for holding this hearing. I also appreciate the willingness of 
our witnesses to share their expertise with us.
    Mr. Chairman, I am a big fan of innovation, and I am proud 
to live in a country with such a rich tradition of industry-led 
innovation and economic success. And I can truly say--as some 
of our witnesses will today--that that innovation has re

[[Page 26]]

sulted in extraordinary improvements in air and water quality, 
as well as public health and safety.
    But I'd be remiss if I did not point out that in so many of 
those cases, innovation alone was insufficient to protect the 
public health and safety. In fact, at times, industry has 
fought tooth and nail to oppose any efforts to protect the 
public health from dangerous products.
    Beginning in the 1950s, the automobile industry fiercely 
opposed requirements aimed at improving passenger safety, 
including innovations like seat belts and air bags that we all 
take for granted today. Thankfully, the Federal Government 
rejected those arguments and over time required seat belts and 
air bags, including passenger-side air bags, in all new cars. 
The result was not economic devastation to the auto industry, 
but rather saving hundreds of thousands of lives.
    In the mid-1970s--at a time when 88 percent of children 
under the age of 5 had elevated levels of lead in their blood--
the oil industry vociferously opposed the EPA phase-out of lead 
from gasoline. Before the predecessor to this committee, the 
American Petroleum Institute testified, ``[i]n our judgment, 
further control of lead is not necessary.'' Thankfully, the EPA 
phase-out continued uninterrupted, and by the time it 
concluded, the reductions meant that less than 2 percent of 
young children had elevated blood lead levels.
    In the 1980s, the world recognized that concerted, 
international action was necessary to halt and reverse the 
growing hole in the ozone layer. President Reagan's EPA 
Administrator at the time, Lee Thomas, later recounted that 
industry lobbied his Administration, claiming that they could 
not phase-out the chlorofluorocarbons (CFCs) causing the ozone 
hole--that it would be too costly, and that the science was 
uncertain.
    President Reagan, however, recognized the risk of 
chlorofluorocarbons, heeded the science, and helped to lead the 
development and implementation of the Montreal Protocol. The 
U.S. Senate ratified the resulting treaty unanimously, by a 
vote of 
83-0. Today, 99 percent of ozone depleting substances have been 
phased out. EPA projects there will be a near complete recovery 
of the ozone layer by the middle of the 21st century. And the 
hairspray industry--which predicted economic calamity--survived 
just fine.
    In the early 1990s, while I was serving as Delaware's only 
Congressman in the House of Representatives, I had the 
privilege of working alongside the late John Dingell, when he 
chaired the House Committee on Energy and Commerce. Under 
Chairman Dingell's leadership, we passed the landmark Clean Air 
Act Amendments of 1990 with the support of President George 
H.W. Bush. Operators of coal-fired power plants argued that the 
law's acid rain provisions would cause rolling blackouts, and 
cost ratepayers billions of dollars. Instead, the law's cap-
and-trade program successfully leveraged the power of market 
forces to reduce pollution, with costs only one-seventh of what 
industry projected.
    Similarly, for toxic air pollution, the 1990 Clean Air Act 
Amendments looked to successful ways that industry was already 
controlling emissions. The law required the largest polluters 
to install ``maximum achievable control technology,'' based on 
what each industry's most effective innovators were already 
doing to reducing pollution. Some might derisively call this a 
Federal mandate. I call it ensuring fair competition--a level 
playing field so that polluters don't get an unfair advantage 
over their cleaner competitors, at the expense of public 
health.
    Unfortunately, when it came to toxic pollution from power 
plants, EPA dragged its feet. In the 2000s, when Senator Lamar 
Alexander and I first introduced a bill to require power plants 
to install already available technology to reduce mercury 
pollution by 90 percent, the utilities said it couldn't be 
done. It would cost too much and take too much time, they told 
us. Thankfully, in 2012, the Obama-Biden EPA finally 
promulgated the Mercury and Air Toxics Standards, which reduced 
mercury pollution by 90 percent, and did so faster than the 
utilities predicted and at one-third of the cost. Today, every 
power plant in our country complies with those standards.
    American industry is great at innovating. But the fact is, 
companies are motivated chiefly by near term shareholder 
pressures, not by the longer term goals of protecting the 
broader public health and welfare. And too many times in our 
history, industries have been resistant to the Government 
actions and responsible regulations necessary to address 
serious health and environmental problems. Yes, lead and 
mercury levels are way down, our ozone layer is much restored, 
and Americans are much less at risk as a result, and we can 
thank smart laws and policies that resulted in unleaded 
gasoline, innovative scrubbers, and CFC substitutes for these 
successes.
    Sometimes, changing the law or writing a new rule is, in 
fact, the only way to resolve critical challenges to our 
environmental quality and public health.

[[Page 27]]

    As we look ahead to our continuing challenges--the climate 
crisis, mercury and other air toxics, emerging contaminants, 
vastly increasing extinction rates, and others--we will need to 
deploy all of the tools at our disposal to ensure we leave 
behind a healthy planet for our children and grandchildren to 
call home.
    So, I hope to learn more about how voluntary actions and 
industry-led initiatives are going to help. I surely hope that 
in some cases, voluntary industry efforts will help solve the 
problem. That said, it is critical we see and accept that there 
will be many cases in which those efforts are not enough, and 
the Government needs to step in and act.
    Once again, I thank our witnesses for sharing their time 
and knowledge with us. I hope we will work together as we 
continue to seek the right marriage of industry and Government 
leadership to improve the quality of the environment.

    Senator Braun. Thank you. It is amazing when time flies 
when you are on an interesting subject. So to respect 
everyone's time, I am going to ask a question here of Mr. 
Wilson and then let the Ranking Member finish up, then I will 
give a little concluding statement.
    When it comes to the whole issue of how--first of all, I 
believe industry, corporations, are generally footdraggers when 
it comes to health care, which I am involved with. I see this 
sector being a lot more ahead in the game, which, depending on 
what you think its speed is, might be disappointing. You ought 
to see how difficult it has been to get the health care 
industry, which is the largest sector of our economy, to get 
with it. Very disappointing.
    I know that when it comes to the cost of capital and the 
return on capital, I am a finance guy, I understand how that 
works, without a pricing mechanism, how much progress do we 
have to where people are just extrapolating the returns on 
investment? And if they are not conscious of the climate, and 
they are not green in nature, is that a mechanism in and of 
itself that will have impact, hopefully geometrically better 
than what we have had up to this point?
    Mr. Wilson. I want to make sure I understand your question. 
Are you asking whether it is possible to achieve sufficient 
reductions without a policy statement?
    Senator Braun. I think your answer to that would be no. I 
am just asking what speed we might see, just for businesses 
making that calculation, that I am not going to invest here 
because it is not addressing the major climate issues, and 
therefore, it would be a return, a poor ROI.
    Mr. Wilson. Right.
    Senator Braun. Which is basically what you have been 
pushing and interested in, since you have been trying to direct 
capital into a better return, because it is conscious of the 
issues out there.
    Mr. Wilson. That is correct. There are a lot of business 
reasons why companies may take on climate change as an issue. 
Right.
    No. 1, obviously, is efficiency. A lot of companies--there 
was a lot of low hanging fruit on the table, companies did not 
have the systems in place to count energy efficiency savings, 
for example, as a return on investment for a long time. So when 
we engaged with companies, there was a lot of low hanging fruit 
like that that they could take advantage of.
    Another benefit of this is, companies are in a competition 
for talent. And talent these days, especially young people, are 
very engaged in this issue, I can tell you. I have two 
children, and they are not of working age yet, but already very 
engaged on this issue.

[[Page 28]]

The example you referenced earlier about Amazon, that began 
with a movement within the employee base of Amazon to push the 
company to take greater steps on climate change. So that would 
be another benefit.
    The third, of course, is more consumer interest in these 
kinds of issues. So for everything from automotive, where 
there's a much more avid interest in fuel efficiency, to the 
food industry, that we engage with a lot, and there is a lot of 
interest in not only healthier diets, but more sustainable 
diets as well, which includes, obviously, better meat 
production, but also moving away from meat to plant based 
sources of food.
    So there are different reasons why companies may take this 
as an issue that they have to really think about. However, what 
we find is that the low hanging fruit is rapidly diminishing, 
and companies have gone a long way toward what they can do 
without a price signal. However, obviously, a better signal 
would accelerate all of the kinds of business cases that we 
already see and have already raised with companies.
    Senator Braun. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thanks very much. I will just offer a 
concluding thought.
    First of all, let me thank Dr. Dutton for being here. 
Science has been warning us for a considerable period of time 
that this is coming at us. Science kind of provides the 
headlights for society, giving us a preview of what is coming 
down the road. For a long time; science has been predicting 
that the road was going to get pretty damned rough.
    But a scientific prediction is a different thing than an 
actual human experience. And the fossil fuel industry's attacks 
on science and on its conclusions have kind of fought that 
science to a standstill, at least during the period when it was 
just warnings.
    Now we have entered the phase where the road is actually 
really getting rough. And we are seeing this in previously 
unknown wildfire intensities, and expanding wildfire seasons. 
We are seeing it in the farming community with very atypical 
flooding experiences and very atypical changes in how seasons 
work, so that crops don't grow the same way.
    In my world, the oceans, Ocean State, Rhode Island, we are 
seeing it with fisheries moving about dramatically. Connecticut 
and Rhode Island have essentially lost their lobster fisheries, 
which used to be a pretty big deal. We are seeing it with 
incredibly obviously measurements of sea level rise, of ocean 
temperature. Really hard to argue with a thermometer.
    And of ocean acidification. Any middle school with an 
aquarium knows how to do a pH test. And pH tests are pretty 
hard to argue with, too.
    So all of this experience is now piling up. In addition, 
from the economic side, we are starting to see warnings that 
weren't apparent just a few years ago. So the warnings out of 
the Bank of England and out of so many other sovereign banks 
about a carbon asset bubble crash have the full attention of 
banks, have the full attention of investors, have the full 
attention of a community that did not take this terribly 
seriously until recently.

[[Page 29]]

    The warnings about a coastal property values crash coming 
from not particularly green places like Freddie Mac have the 
attention of all of the business community members whose 
livelihoods depend on vibrant coastal communities--insurance, 
real estate, builders, all of that.
    So I think what we are at now is a point where for the 
first time, there are very serious business interests for whom 
climate change is no longer just a matter of humoring 
shareholders and customers, but really goes to a potential 
dramatic hit to their business model. And if you read what Mark 
Carney at the Bank of England is warning about in terms of a 
carbon asset bubble crash, even API's corporate members have a 
lot to fear from a disorderly transition.
    Companies that want to put their hands over their ears and 
say la, la, la, la, la, and not pay any attention through this 
stand a very good chance of hitting a wall and having a very 
hard landing. Whereas with some preparation and care, that 
could be something you could work your way through with some 
attentive and thoughtful policy changes.
    There is a big difference between jumping out of a plane 
and jumping out of a plane with a parachute. And the outcome is 
very different when you hit the ground.
    So even API's members, I think, have an enormous stake in 
getting this right. And certainly, the chambers do, across a 
much broader array of industries that the Chamber represents.
    So I look forward to continuing this discussion. I look 
forward to the answers to the questions for the record.
    In addition to asking to have the Chamber's page about 
these different levels of membership put into the record, I 
would also like to have the Chamber's letter of today 
scorecarding the Senate resolution put into the record.
    Then I have three articles, since I raised this issue about 
the methane, three articles about the fossil fuel industry's 
performance with respect to methane leakage and flooring. One 
is a technical presentation, a scientific report called 
Assessment of Methane Emissions from the U.S. Oil and Gas 
Supply Chain.
    The next is yesterday's New York Times story entitled 
Despite Their Promises, Giant Energy Companies Burn Away Vast 
Amounts of Natural Gas. And a final one is today's article from 
Unearthed, whose title is not readily apparent, here we go, 
Exxon and BP Among Worst for Flaring in U.S. Oil Fields, 
Despite Green Pledges.
    With your permission, Mr. Chairman, I would ask those to be 
added to the record.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. And I thank all the members of the 
panel for being here today.
    Senator Braun. By the way, those will be added to the 
record, and the record will be open for 2 weeks for any other 
submissions.
    Very briefly, we are going to use this platform often. I 
think the other news you may or may not know, but we are going 
to introduce a climate caucus. I was the first Republican asked 
to be on

[[Page 30]]

it, and was proud to be the first one to say yes. There will be 
others.
    I think this is the defining issue going forward. We just 
need to figure out how we do it in a way that we can pay for 
it, that everyone is engaged. And also, how we get the rest of 
the world involved in doing it.
    I think with the conscientious effort and speed you are 
going to see from this country, and I am sure that we both 
share that interest. This hopefully will be the first of many 
conversations.
    I want to thank all of you for coming in today to share 
your thoughts.
    With that being said, this hearing is adjourned.
    [Whereupon, at 11:34 a.m., the hearing was concluded.]
    [An additional statement submitted for the record follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Mr. Chairman, thank you for hosting this hearing on the 
important ways industry has both voluntarily and effectively 
reduced its impact on the environment. This is a necessary 
discussion as, unfortunately, we rarely hear of the many ways 
industry is already taking initiative to reduce its 
environmental footprint without overly burdensome and 
ineffective Government mandates. I am taking this opportunity 
to highlight an instance when regulators went too far with an 
emission reduction proposal that harmed American innovation and 
economic growth.
    As a former chairman of this full committee, I distinctly 
recall the many spirited policy disagreements I had with the 
Obama administration on environmental regulations. While there 
were many heavy-handed and harmful proposals during that 
administration, one of the most ill-conceived was in regard to 
changes to corporate average fuel economy (CAFE) standards. As 
many know, days before President Trump's inauguration, the 
Obama administration's Environmental Protection Agency (EPA) 
acted unilaterally to lock in its portion of the 2012 CAFE 
standards through 2025. These standards would have 
unquestionably hampered production of trucks and SUVs as these 
types of vehicles do not help automakers meet the arbitrary 
CAFE standards of 50 miles per gallon fuel economy average by 
2025. Government bureaucrats intended to force their radical 
environmental agenda on Americans despite the reality that SUVs 
and trucks make up over two-thirds of vehicles sold in America. 
The standards have also encouraged car companies like Jeep to 
sacrifice passenger safety by forgoing a spare tire in an 
effort to reduce vehicle weight to increase average fuel 
economy. Fortunately, the Trump administration is putting a 
stop to President Obama's harmful fuel economy standards and 
has proposed replacing them with standards that will reduce 
vehicle price tags for consumers while maintaining an ambitious 
national fuel economy standard.
    The Obama-era CAFE standards are one of many instances in 
which bureaucrats have forced their radical environmental 
agenda on the American people. These policies are misguided and 
unfairly limit consumer choice. Oklahomans want affordable 
vehicles and do not need Washington elites telling them what 
kind of cars they can own. I continue to be proud of the Trump 
administration and its efforts to cut red tape and improve CAFE 
standards. Thankfully we finally have a president willing to 
stand up for Oklahoma's farmers, ranchers and small business 
owners.

    [Additional material submitted for the record follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
